TX

C@OCKLE

2311 Douglas Street Le ga l Brief s E-Mail Address:

Omaha, Nebraska 68102-1214 Est. 1923 contact@cocklelegalbriefs.com
1-800-225-6964 Web Site
(402) 342-2831 www.cocklelegalbriefs.com

Fax: (402) 342-4850 No. 19-438

CLEMENTE AVELINO PEREIDA,
Petitioner,

v.
WILLIAM P. BARR,
Attorney General of the United States,
Respondent.

AFFIDAVIT OF SERVICE

1, Andrew Cockle, of lawful age, being duly sworn, upon my oath state that I did, on the 4th day of February, 2020, send out
from Omaha, NE 2 package(s) containing 3 copies of the BRIEF OF IMMIGRANT DEFENSE PROJECT, AMERICAN
IMMIGRATION LAWYERS ASSOCIATION, THE NATIONAL IMMIGRANT JUSTICE CENTER, IMMIGRANT LEGAL
RESOURCE CENTER, AND NATIONAL IMMIGRATION PROJECT OF THE NATIONAL LAWYERS GUILD AS
AMICI CURIAE IN SUPPORT OF PETITIONER in the above entitled case. All parties required to be served have been
served by Priority Mail. Packages were plainly addressed to the following:

SEE ATTACHED
To be filed for:
LEILA KANG JAYASHRI SRIKANTIAH
NABILAH SIDDIQUEE Counsel of Record
IMMIGRANT DEFENSE PROJECT IMMIGRANTS’ RIGHTS CLINIC
40 West 39th St., Fifth Floor STANFORD LAW SCHOOL,
New York, NY 10018 559 Nathan Abbot Way

Stanford, CA 94305
(650) 724-2442
jsrikan-tiah@law.stanford.edu

Counsel for Amici Curiae

Subscribed and sworn to before me this 4th day of February, 2020.
Iam duly authorized under the laws of the State of Nebraska to administer oaths.

PATRICIA BILLOTTE.

General Notary . ‘
State of Nebraska : Lhe Qudraw- ,
My Commission Expires Nov 24, 2020 f

Notary Public Affiant 39261

 

 
 

 

Attorneys for Petitioner
Brian Philip Goldman Orrick, Herrington & Sutcliffe LLP 415-773-5676
Counsel of Record 405 Howard Street
San Francisco, CA 94105
brian.goldman@orrick.com

Party name: Clemente A. Pereida

 

Attorneys for Respondent
Noel J. Francisco Solicitor General 202-514-2217
Counsel of Record United States Department of Justice
950 Pennsylvania Avenue, NW
Washington, DC 20530-0001
SupremeCtBriefs@USDOJ.gov

Party name: Barr, Att'y Gen.

 

 
